U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 23, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Nevia Abraham v. United States,
S.Ct. No. 20-7634

Dear Mr. Harris:
Petitioner has filed a motion to dismiss his petition in the above-captioned case pursuant
to Supreme Court Rule 46.
Respondents do not object to the dismissal of the petition under Rule 46.2 of the Rules of
the Court.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-7634
ABRAHAM, NEVIA
USA

GAIL SMITH STAGE
FEDERAL PUBLIC DEFENDER, SOUTHERN
DISTRICT OF FLORIDA
1 EAST BROWARD BOULEVARD
STE. 1100
FORT LAUDERDALE, FL 33301
954-640-7130

